556
No. 98110-8
IN THE

Sufinente @owtt of Me 'United State*
Supre

LINDA AMES

JUL'2 2020
PetitA mop ^CLERK

V.

HSBC BANK USA, NATIONAL ASSOCIATION AS
TRUSTEE FOR WELLS FARGO ASSET SECURITIES
CORPORATION, MORTGAGE PASS-THROUGH
CERTIFICATES SERIES 2006-AR16
•%v-

Respondents
On Petition for a Writ of Certiorari
To the Supreme Court of the State of Washington
PETITIONFOR WRIT OF CERTIORARI
LINDA AMES
11920 NW 35TH AVENUE
VANCOUVER WA 98685
TEL: (360) 931-1797
LINDALOUAMES@COMCAST.NET
Petitioner

received
SEP'

ggiyicSsiSi

QUESTION PRESENTED
ONE
DOES THE COMPLETE ABSENCE FROM THE
JURISDICTION OF THIS COURT FROM THE OUTSET OF
THE ASSIGNMENT IN 2011 ENTITLE THE PLAINTIFF TO
CLAIM THAT THE STATUTE OF LIMITATIONS WAS
TOLLED AT ALL TIMES RELEVANT TO THE
RELATIONSHIP BETWEEN THE PARTIES?
TWO
BECAUSE THE DEFENDANT WAS PAID IN FULL OR
PARTIALLY PAID AS A RESULT OF THE CLASS ACTION
SETTLEMENT AND OTHER SETTLEMENTS BETWEEN
THE INVESTORS AND SERVICERS AND ORIGINATORS
AND RECOVERED PRIVATE MORTGAGE INSURANCE
PROCEEDS, IS AMES ENTITLED TO CLAIM THE
DEFENDANT WAS ALREADY PAID BEFORE THE
FORECLOSURE OF HER HOME?
THREE
WAS THE DEFENDANT APPELLEE WAS UNJUSTLY
ENRICHED WHEN IT COLLECTED THE PROCEEDS OF
THE SALE OF HER HOME?
FOUR
DID AMES WAIVE HER QUIET TITLE, WRONGFUL
FORECLOSURE, CONVERSION, AND CIVIL CONSPIRACY
CAUSES OF ACTION WHEN SHE FAILED TO ENJOIN THE
VOID FORECLOSURE SALE WHERE THERE WAS NO
SALE TO ENJOIN, SHE WAS TOLD IT WAS CANCELLED
AND THE APPOINTMENT OF THE TRUSTEE WAS VOID?
FIVE
DID THE COURT ERR IN GRANTING THE MOTION FOR
SUMMARY JUDGMENT WHERE IT WAS PREMATURE AS
THE DEFENDANT / APPELLEE FAILED AND REFUSED
TO RESPOND TO THE DISCOVERY PROPOUNDED FOR
Pg-2

MORE THAN A YEAR AFTER BEING ORDERED TO
RESPOND?
SIX
WAS THE APPOINTMENT OF THE TRUSTEE BY WELLS
FARGO VOID WHERE WELLS FARGO HAD ALREADY
ASSIGNED ALL THEIR RIGHT TITLE AND INTEREST IN
THE NOTE AND MORTGAGE AT THE TIME THEY
APPOINTED A SUCCESSOR TRUSTEE?

Pg-3

••

11.

PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT
Petitioner, who was the Plaintiff-Appellee below, is
LINDA AMES, acting pro se.
Respondent is HSBC BANK USA, NATIONAL
ASSOCIATION AS TRUSTEE FOR WELLS FARGO
ASSET SECURITIES CORPORATION, MORTGAGE
PASS-THROUGH CERTIFICATES SERIES 2006-AR16,
a non-existent, closed trust who never had standing to
foreclose.

pg.4

111.

TABLE OF CONTENTS
Page
QUESTION PRESENTED

5

PARTIES TO THE PROCEEDING AND
RULE 29.6 STATEMENT......................

5

TABLE OF AUTHORITIES

6

PETITION FOR A WRIT OF
CERTIORARI......................

7

OPINIONS BELOW

7

JURISDICTION

7

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ................

7

STATEMENT OF THE CASE

8

REASONS FOR GRANTING THE PETITION ...15

Pg-5

V.

TABLE OF AUTHORITIES
Page(s)
CASES
Bailie Commc'ns,
21
61 Wash.App. at 159-60, 810 P.2d 12;
Bain v. Metro. Mortg. Grp, Inc.,
30
175 Wn.2d 83, 89, 285 P.3d 34 (2012)
27
Barber v. Bankers Life & Cas. Co.,
81 Wn.2d 140, 142, 500 P.2d 88 (1972);
27
Barrie v. Hosts ofAm., Inc.,
94 Wn.2d 640, 642, 618 P.2d 96 (1980);
Brown,
30
184 Wn.2d at 523
Carpenter v. Longan,
28
83 U.S. 271 (1872)
Celotex Corp. v. Catrett,
29
477 U.S. 317, 326, 106 S.Ct. 2548, 91 L.Ed.2d 265 (1986))).
Demelash v. Ross Stores, Inc.,
29
20 P. 3d 447 - Wash: Court of Appeals, 1st Div. 2001,
Doyle v. Planned Parenthood,
19
639 P. 2d 240 - Wash: Court of Appeals, 1st Div. 1982
Engler v. RECONTRUST COMPANY,
27
Dist. Court, CD California 2013.
Glaski v. Bank ofAm., Nat'l Ass'n,
23, 27
218 Cal. App. 4th 1079, 1100 (2013)
Guile v. Ballard Cmty. Hosp.,
29
70 Wash.App. 18, 24, 851 P.2d 689 (1993).
Hutchins v. 1001 Fourth Ave. Assocs.,
18
116 Wash.2d 217, 220, 802 P.2d 1360 (1991).
In re Saldivar
24
(Bankr. S.D.Tex., June 5, 2013, No. 11-10689) 2013 WL
2452699, p. *4
Lester v. J.P. Morgan Chase Bank,
27
926 F. Supp. 2d 1081, 1093 (N.D. Cal. 2013)

Pg-6

Levitin & Twomey, Mortgage Servicing,
24
28 Yale J. on Reg. at p. 14, fn. 35
Lynch v. Deaconess Med. Ctr.,
21
113 Wash.2d 162, 165, 776 P.2d 681 (1989);
Miller v. Wells Fargo Bank,
26
No. 012-2282 EMC, 2012 WL 1945498, at *2, 4 (N.D. Cal. May
30, 2012) (Chen, J.)
Morris v. McNicol,
27
83 Wn.2d 491, 494-95, 519 P.2d 7 (1974).”
Oubre v. Entergy Operations, Inc.,
20
522 U.S. 422, 425 (1998).
Plein,
27
149 Wn.2d at 227.RCW 61.24.127(1)
Pro Value Props., Inc. v. Quality Loan
Serv. Corp.,
26
170 Cal. App. 4th 579, 583 (2009)
Walker v. Quality Loan Serv. Corp.,
30
176 Wn. App. 294, 306, 308 P.3d 716 (2013)
Wells Fargo Bank, N.A. v. Erobobo
24
(N.Y.Sup.Ct. 2013) 39 Misc.3d 1220(A) [2013 WL 1831799, p.

*8]
Wilson v. Steinbach,
27
656 P. 2d 1030 - Wash: Supreme Court 1982.
Yakima Fruit & Cold Storage Co. v. Central Heating &
Plumbing Co.,
27
81 Wn.2d 528, 530, 503 P.2d 108 (1972);
Young v. Young,
21
191 P. 3d 1258 - Wash: Supreme Court 2008

CONSTITUTIONAL AUTHORITIES AND STATUTES
Civil Rule
Civil Rule
Civil Rule
Civil Rule
Civil Rule

15(a).
56(f)
15(a)
26(g)
56(c)

19
29
19
29
18
Pg-7

Civil Rule 56(f)
EPTL § 7-2.4
RCW 4.16.180
RCW 61.24.010

29
24
19
29

Pg-8

PETITION FOR A WRIT OF
CERTIORARI
Petitioner, LINDA AMES, respectfully submits
this petition for a writ of certiorari.
OPINIONS BELOW
Petitioner LINDA AMES’, appealed to the
Washington Supreme Court, and the Order of that Court
was mailed on May 21, 2020 denying the Writ of
Mandamus and ordering payment of court costs.
JURISDICTION
The Washington Supreme Court rendered its decision
denying relief on May 21st, 2020. This Court has
jurisdiction pursuant to 28 US Code § 1257 (a).
CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED
The US Constitutions Clauses under 5th and 14th
Amendments, protecting the Due Process and Equal
Protection Rights of its citizens under the law. Petitioner
is being deprived of her Substantive due process, which
is the doctrine holding that the 5th and 14th
Amendments require all governmental intrusions into
fundamental rights and liberties be fair and reasonable
and in furtherance of a legitimate governmental interest,
requiring the courts to apply fairly the law and the
application of the statute. Permitting the wrongful
foreclosure of her property to a non-existent,
unregistered entity, who was paid in full twice before the
sale of her home clearly deprived the Appellant of her
fundamental due process rights. The refusal to grant the
motions to compel discovery after already granting an
order to compel clearly shows the appellant was deprived
of her due process rights and prevented from proving
that the Lender was paid in full three times.
Pg-9

STATEMENT OF THE CASE
In this appeal, Linda Ames, Plaintiff / Appellant prcrse,
seeks reversal of the Order of the Superior Court from a
series of orders, denying entry of default, and default
judgment, denying multiple motions to compel discovery,
appealing the order granting summary judgment in favor
of HSBC acting as Trustee for Wells Fargo and appealing
the Court’s order denying Plaintiffs motion to amend the
complaint to include Wells Fargo after discovering that
Wells admitted in their phone logs cancelling her loan
modification because the investor / lender never approved
of the amount she was paying for more than a year.
Victimized like so many other homeowners, Linda
Ames, after timely paying for a year on her loan
modification, Wells Fargo unilaterally increased her
payments. They told her that the modification they
originally promised was permanent was only temporary
and ended it. They told her to apply for another
modification but did not disclose that the reason for their
breach was that the amount they had her paying was not
acceptable to the investor / Lender. After following Wells’
servicers’ instructions, they ultimately denied her loan
modification.
After making multiple demands for
production of documents, the Defendant produced only
some of the records they were ordered to produce. One
set that was produced included call logs where Wells
admitted to not only instructing her to stop making
payments, but also revealed that the real motive behind
the servicer telling Ames to stop making her payments
was because the investor (Lender) never agreed to the
terms of the loan modification offered to and accepted by
Ames in the first instance.
After doing all she could to save her home, Wells
purported to hold a non-judicial foreclosure sale. Ames
was present at the time and place designated for the sale,
pg. 10

and was told that it was cancelled where she then had to
rush off to attend an eviction proceeding they also
scheduled at the same time as the sale, which was also
cancelled.
What is worse, is that a few days later, she received
notification that her home was sold at that auction, and
the paperwork shows that the sale occurred in California,
not on the courthouse steps as required by law. There
was no sale, but a transfer, and then the property was
sold for full market value to a third-party buyer, so the
Appellee maximized the profit from the theft of the
Appellant’s equity in the property.
A review of the public records further reveals new
evidence that has arisen since the filing of the complaint.
The Notice of Appeal was filed on March 8th, 2018.
However, on August 1, 2018, a settlement was entered
into between the United States, acting through the
United States Department of Justice ("Department of
Justice"), and Wells Fargo Bank, N.A. which included
conduct related to the subject Defendant Trust.
“The United States contends that it has certain civil
claims against Wells Fargo specified in Paragraph 3 of the
Terms and Conditions section below, including those
under the Financial Institutions Reform, Recovery and
Enforcement Act of 1989 ("FIRREA"), 12 U.S.C. § 1833a.
The United States contends that these civil claims are
predicated on Wells Fargo's violations of 18 U.S.C. § 1341
(mail fraud), 18 U.S.C. § 1343 (wire fraud), 18 U.S.C. §
1014 (false statements to financial institutions), and 18 U
.S .C. § 1344 (financial institutions fraud). Ibid. Pg. 2. “3.
Releases by the United States. Subject to the exceptions
in Paragraph 4 ("Excluded Claims") and conditioned upon
Wells Fargo's full payment of the Settlement Amount, the
United States fully and finally releases Wells Fargo ...
from any civil claim the United States has against the
Released Entities for the Covered Conduct arising under
FIRREA, 12 U.S.C. § 1833ai the False Claims Act, 31
U.S.C. §§ 3729, et seq.; the Program Fraud Civil
Pg-H

Remedies Act, 31 U.S.C. §§ 3801, et seq.; the Racketeer
Influenced and Corrupt Organizations Act, 18 U.S.C. §§
1961, et seq.; the Injunctions Against Fraud Act, 18
U.S.C. § 1345; common law theories of negligence, gross
negligence, payment by mistake, unjust enrichment,
money had and received, breach of fiduciary duty, breach
of contract, misrepresentation, deceit, fraud, and aiding
and abetting any of the foregoing; or that the Civil
Division of the Department of Justice has actual and
present authority to assert and compromise pursuant to
28 C.F.R. § 0.45(d). 4. Excluded Claims. Notwithstanding
the releases in Paragraph 3 of this Agreement, or any
other term(s) of this Agreement, the following claims are
specifically reserved and not released by this Agreement:
a. Any conduct other than the Covered Conduct; b. Any
criminal liability; c. Any liability of any individual; ...”
Ibid. FN 1.
Since this settlement occurred after the complaint
was filed the Appellant has new and additional grounds
for her complaint. The government got the Defendant to
settle on the grounds that the Defendant had committed
illegal acts which are identical to those complained of by
Ames. Defendant had unclean hands when it foreclosed
against Ames, and since non-judicial foreclosure is an
equitable action, the unclean hands was a bar to any
recovery. The multiple civil actions were excluded in the
settlement itself so that they may be permitted to
proceed, whereas the Plaintiff / Appellant is being
deprived of her causes of action.
Additionally, since the filing of the action, a class
action lawsuit was just discovered listing this trust. IN
RE
WELLS
FARGO
MORTGAGEBACKED
CERTIFICATES LITIGATION, Civil Action No. 09-cv01376-SI, Amended Consolidated Class Action Complaint
For Viol. Of §§ 11, 12(a)(2) and 15 Of The Securities Act
of 1933. See Ibid, f 43. That class action included relief
sought by the subject investors in the subject trust. The
settlement was distributed under that class action, which
pg. 12

means that at the time the Defendant foreclosed on the
Plaintiff, they had already recovered their money for the
subject mortgage, or at a minimum, some portion of it,
which was never credited to the Plaintiff.
That not only did the Defendant have unclean
hands, but the Lender was ALREADY PAID for some or
all of the subject mortgage when it claims it sold the
Plaintiffs property at an auction that never occurred.
The settlement indicates that the Public Employees’
Retirement System of Mississippi was the investor /
“Lender” in this action and recovered their investment
before taking the Plaintiffs property. At a minimum,
they have been unjustly enriched at the Plaintiffs
expense.
“The Settlement Fund consists of $125 million plus
interest earned. Based on the total initial face dollar
value of the Certificates as stated in the prospectus
supplements (without subtracting the principal
paydowns received on the Certificates), and assuming all
purchasers of the initially offered certificates elect to
participate, the estimated average distribution is $2.70
per $1,000 in initial certificate value of the Wells Fargo
Certificates. Class Members may recover more or less
than this amount depending on, among other factors,
when their certificates were purchased or sold, the
amount of principal that has been repaid, the value of the
certificates on the applicable Date of First Suit as
indicated in the attached Table A, the number of Class
Members who timely file Claims, and the Plan of
Allocation, as more fully described below in this Notice.
In addition, the actual recovery of Class Members may be
further reduced by the payment of fees and costs from the
Settlement Fund.”
This settlement occurred after the Defendant
claimed to have acquired the mortgage into the closed
trust thereby voiding the subject mortgage. The Trust
was closed on September 22nd, 2006 and the assignment
of mortgage was December 6th, 2011 pursuant to the
pg. 13

recorded assignment, Document 4813726, recorded in the
official records of Clark County, Washington, Exhibit 3
attached to the complaint.
There were other defects in the sales process. For
example, the public records prove that the Trustee was
not lawfully appointed by Wells Fargo, because Wells
Fargo had already assigned away their right title and
interest at the time they claim they appointed the
Trustee. Defendant Appellee also admitted that Leisa
Jefferson was not authorized to execute the documents in
favor of Wells because she was an employee of Wells and
falsely held herself out to be the authorized signator of
the assignor, but it was a defunct entity at the time and
not licensed to do business in the state.
The sale was cancelled and the sale did not transpire on
the Courthouse steps. In fact, the Trustee was not even
licensed to do business in the State at the time of the
purported sale to the Defendant. Because the Defendant
/ Appellee, trust is not a registered trust and not licensed
to do business in this state, it (CP - 2) had no standing to
foreclose on the Plaintiff or seek any affirmative relief. It
is barred from collecting any money from the Plaintiff /
Appellant. That, in and of itself, was grounds to deny the
opposition and hold them to answer. RCW 23.95.505.
Furthermore, the Defendant Trust was not licensed
to do business in this State and the trust was closed at
the time it claims to have acquired the interest in the
Plaintiffs home. The identity of the Lender has and was
at all relevant times concealed from the Plaintiff until the
foreclosure.
The foreclosure came about in the first place
because Wells instructed Plaintiff to default in her
payments so she could get a loan modification. Nothing
that transpired against the Plaintiff was legal, and
Defendant, knowing that, failed and refused to respond to
the propounded discovery, all with the hopes of
preventing the Court from seeing the depth of their
deception. During the lower court case, the Plaintiff /
pg. 14

Appellant brought Six Motions to Compel because the
discovery sought directly related to the issues listed
herein, and the Appellant never received full responses.
In fact, the Appellant obtained an order granting her
request requiring them to respond by February 28th,
2017 and Appellant was still waiting by the time the
motion for Summary Judgment was granted. Defendant
violated the discovery order and went unpunished.
Defendant / Appellees’ were evasive, non-responsive
and protecting the individuals who executed and recorded
false documents in the official records. Declaration of
Linda Ames, Paragraph 74. The sale never happened as
the Plaintiff herself and her father were present at the
time and place designated, so her father could bid and buy
the property, and they were told the sale was cancelled.
The recorded documents thereafter show that the “sale”
happened a few days later in California, where the
recorded documents were actually notarized and
executed. There was no auction. There was no sale, and
the Trustee was not even lawfully appointed to hold a sale
as Wells Fargo was already no longer the holder or owner
of the note and mortgage when the substitute trustee was
appointed. Declaration of Linda Ames, Paragraph 85.
Plaintiff has filed an action for declaratory, monetary
relief and other relief. Plaintiff has filed her SIXTH
motion to compel after the Defendant still refuses to
answer the Request for Admissions without objection;
refuses to respond to the Interrogatories without
objection and have them signed under oath; and refused
to identify which documents it did produce apply to which
request. The court has already found that the initial
responses were wholly evasive and incomplete, the Court
ordered the Defendant to respond to the Request for
Admissions, Request number 7, 17, 18, 19, 20, 22, 23, 24,
25, 27, 29 and 30 without objection, and the Court
overruled the objections; Defendant was ordered to
forthwith produce all documents in their possession,
custody or control in response to Defendant’s Requests 1*
pg. 15

48, inclusive without objection! the Defendant was
ordered to respond fully to the interrogatories with all
knowledge and information in their possession, custody
or control in response to Defendant’s Requests 1-43,
inclusive without objection! and the Defendant was
ordered to produce a true and correct copy of the original
authentic note that bears the initials on each page of the
Plaintiff and her authentic, original signature, on the
back page. The court imposed a deadline of February
28th, 2017 giving the Defendants 30 days to respond.
More than a year and half passed since the discovery was
propounded, and more eight months beyond the deadline
imposed by the last order of the court granting the
requests before the Defendant filed their motion for
summary judgment to avoid having to respond to the
discovery. The unexplained failure to furnish complete
and meaningful answers to these material interrogatories
in the face of the court's order impels a conclusion that
the refusal was willful. Instead of properly imposing
sanctions, Rhinehart v. Seattle Times, 754 P. 2d 1243 Wash: Court of Appeals, 1st Div. 1988, the lower court
granted the motion for summary judgment.
DEFENDANT’S purported predecessor in interest
previously committed wrongful acts, in that they
previously attempted to foreclose on the Plaintiff, LINDA
AMES in a non-judicial foreclosure proceeding over a
Mortgage on this property at 10810 NW 13th Place,
VANCOUVER WA 98685 with SIERRA PACIFICA
MORTGAGE CO. INC., recorded a mortgage (Exhibit “2”)
on the property Document 4148891, recorded on April
6th, 2006, in the official records of this County. (CP — 78). On December 8th, 2011, there was an ASSIGNMENT
OF DEED OF TRUST RECORDED BY WELLS FARGO
HOME MORTGAGE, listing SIERRA PACIFIC
MORTGAGE CO INC as the Grantor and HSBC BANK
USA NA, as the Trustee, Document 4813726, Exhibit 3.
On March 26, 2012, AFTER WELLS FARGO had already
recorded the assignment of Deed of Trust, as set forth
pg. 16

above, they then recorded an appointment of Trustee to
Quality Loan Service Corp. of Washington, Document
4841188; and as a result of the fact that WELLS FARGO
no longer had any right to do so, the appointment of
Trustee was void and unlawful. Ames motion to amend
was denied, even though she had multiple motions to
compel pending; discovery had not been completed, and
all because the lower court believed that the complaint
was barred by the Statute of Limitations, however, the
facts show that all the relevant entities were barred from
doing business in this state, and absent from the state,
therefore any relevant statute of limitations is
inapplicable due to their absence from the jurisdiction.
The entire sale was replete with the above listed defects.
Finally, the statute of limitations was tolled in the
instant case. A review of the public records shows that
HSBC BANK USA terminated their status in this state
and became inactive in 08/10/2004.
https7/ccfs.sos.wa.gov/#/BusinessSearch/BusinessInform
ation. When HSBC was registered here, they registered
as a Foreign Entity whose jurisdiction was New York.
Wells Fargo Asset Securities Corporation, Mortgage
Pass-Through Certificates Series 2006-AR16 is not a
registered trust in this state at all. See
http s V/ccfs. sos. wa. gov/#/Busine s s Search
No Value
Found.) As a result of their absence, Defendants /
Appellees claims of statute of limitations are improper as
the statute was tolled.
REASONS FOR GRANTING THE PETITION
REASONS FOR GRANTING THE PETITION
POINT ONE
DOES THE COMPLETE ABSENCE FROM THE
JURISDICTION OF THIS COURT FROM THE
OUTSET OF THE ASSIGNMENT IN 2011 ENTITLE
THE PLAINTIFF TO CLAIM THAT THE STATUTE OF
pg-17

LIMITATIONS WAS TOLLED AT ALL TIMES
RELEVANT TO THE RELATIONSHIP BETWEEN
THE PARTIES?
POINT TWO
BECAUSE THE DEFENDANT WAS PAID IN FULL
OR PARTIALLY PAID AS A RESULT OF THE CLASS
ACTION SETTLEMENT AND OTHER SETTLEMENTS
BETWEEN THE INVESTORS AND SERVICERS AND
ORIGINATORS AND RECOVERED PRIVATE
MORTGAGE INSURANCE PROCEEDS, IS AMES
ENTITLED TO CLAIM THE DEFENDANT WAS
ALREADY PAID BEFORE THE FORECLOSURE OF
HER HOME?

POINT THREE
WAS THE DEFENDANT APPELLEE WAS UNJUSTLY
ENRICHED WHEN IT COLLECTED THE PROCEEDS
OF THE SALE OF HER HOME?
POINT FOUR
DID AMES WAIVE HER QUIET TITLE, WRONGFUL
FORECLOSURE, CONVERSION, AND CIVIL
CONSPIRACY CAUSES OF ACTION WHEN SHE
FAILED TO ENJOIN THE VOID FORECLOSURE
SALE WHERE THERE WAS NO SALE TO ENJOIN,
SHE WAS TOLD IT WAS CANCELLED AND THE
APPOINTMENT OF THE TRUSTEE WAS VOID?
POINT FIVE
DID THE COURT ERR IN GRANTING THE MOTION
FOR SUMMARY JUDGMENT WHERE IT WAS
PREMATURE AS THE DEFENDANT / APPELLEE
FAILED AND REFUSED TO RESPOND TO THE
DISCOVERY PROPOUNDED FOR MORE THAN A
YEAR AFTER BEING ORDERED TO RESPOND?
POINT SIX
pg. 18

WAS THE APPOINTMENT OF THE TRUSTEE BY
WELLS FARGO VOID WHERE WELLS FARGO HAD
ALREADY ASSIGNED ALL THEIR RIGHT TITLE
AND INTEREST IN THE NOTE AND MORTGAGE AT
THE TIME THEY APPOINTED A SUCCESSOR
TRUSTEE?
DE NOVO STANDARD ON APPEAL SUMMARY
JUDGMENT
De Novo review is proper on Summary Judgment and it
is properly granted ONLY when the pleadings, affidavits,
depositions, and admissions on file demonstrate there is
no genuine issue of material fact and the moving party is
entitled to judgment as a matter of law. CR 56(c).
Hutchins v. 1001 Fourth Ave. Assocs., 116 Wash.2d 217,
220, 802 P.2d 1360 (1991). Leave to amend a complaint is
to be freely given when justice requires. CR 15(a). Doyle
v. Planned Parenthood, 639 P. 2d 240 - Wash: Court of
Appeals, 1st Div. 1982 Civil Rule 15(a).
IH. ARGUMENT
POINT ONE
THE COMPLETE ABSENCE FROM THE JURISDICTION OF
THIS COURT FROM THE OUTSET OF THE ASSIGNMENT
IN 2011 ENTITLES THE PLAINTIFF TO CLAIM THAT THE
STATUTE OF LIMITATIONS WAS TOLLED AT ALL TIMES
RELEVANT TO THE RELATIONSHIP BETWEEN THE
PARTIES.
The court found that the statute of limitations was a bar,
but did not consider tolling. Because Wells Fargo Asset
Securities Corporation, Mortgage Pass-Through Certificates
Series 2006-AR16 is not a registered trust in this state. HSBC
is suspended from doing business in this state and only
registered here as a foreign entity, New York, then the
Defendant has, at all relevant times to this complaint,
pg. 19

including while they claimed to be the owner and holder of the
subject note and mortgage, were absent from this state. As a
result, the RCW 4.16.180 applies tolling the application of any
statute of limitation. The court erred in not finding that the
statute of limitations was tolled pursuant to statute. The
complaint alleges that the Defendant was doing business here
unlawfully; (Paragraph 4 of Complaint) and none of them were
registered to do business here at any relevant times. Appellant
was deprived of her Due Process and Equal Protection Rights
when the tolling statute was ignored.
POINT TWO
THE DEFENDANT WAS PAID IN FULL OR PARTIALLY
PAID AS A RESULT OF THE CLASS ACTION
SETTLEMENT AND OTHER SETTLEMENTS BETWEEN
THE INVESTORS AND SERVICERS AND ORIGINATORS
SUCH THAT THE DEFENDANT DOUBLE RECOVERED
AND
PROFITED
FROM
THE
MISCONDUCT
PERPETRATED BY THE DEFENDANT.
Foreclosure is an equitable action. "[C]ontracts tainted
by mistake, duress, or even fraud are voidable at the option of
the innocent party." Oubre v. Entergy Operations, Inc., 522
U.S. 422, 425 (1998). Here, equity dictates that the Defendant
not only profited at the expense of the Plaintiff but was unjustly
enriched. The auction never happened as evidenced by the
“Trustee’s Deed Upon Sale”, prepared and recorded by Wells
Fargo Bank N.A., 1 Home Campus, Des Moines, IA and signed
by Quality Loan Service Corporation of Washington on
November 27th, 2013 in San Diego County, California. See
Document 5035077, recorded on December 3rd, 2013 in Clark
County, Washington. Exhibit 7 attached to the complaint. The
Trustees Deed Upon Sale was even executed days after the
purported auction and in California, not in Clark County,
Washington where the auction was cancelled. There was no
sale to stop, there was only an unlawful transfer in California
orchestrated by the Defendant and the Trustee. Appellant was
deprived of her Due Process and Equal Protection Rights when
pg. 20

the non-judicial foreclosure statutes were violated and the
transfer occurred in California after the sale was cancelled.
POINT THREE
THE
DEFENDANT APPELLEE
ENRICHED

WAS

UNJUSTLY

"Three elements must be established in order to
sustain a claim based on unjust enrichment: a benefit conferred
upon the defendant by the plaintiff; an appreciation or
knowledge by the defendant of the benefit; and the acceptance
or retention by the defendant of the benefit under such
circumstances as to make it inequitable for the defendant to
retain the benefit without the payment of its value." Bailie
Commc'ns, 61 Wash.App. at 159-60, 810 P.2d 12; see also Lynch
v. Deaconess Med. Ctr., 113 Wash.2d 162, 165, 776 P.2d 681
(1989); Young v. Young, 191 P. 3d 1258 - Wash: Supreme Court
2008.
(l) The defendant receives a benefit:
The home was not sold at auction. It was taken by the
bank in a closed-door transfer. After the bank stole the home,
it then put the house on the market and sold it at fair market
value, stealing all the equity for itself. The benefits conferred
on the Defendant included the years of improvements on the
property made by the Plaintiff, enhancing the value and all the
equity she built up into the property. Plaintiff testified she has
invested more than $400,000 in improvements in the home.
After the work was done, the Plaintiff testified and Defendant’s
billing records confirm, that they sent inspectors to the home,
saw the enhanced value, and decided to take the home.
In case that was not enough, the Lender DOUBLE
RECOVERED for the VOID mortgage since it also settled the
class action and accepted payment thereunder, and did not
credit the Plaintiff for the money received on their investment
in her mortgage out of the $125 million plus interest they got
from the entities who set up the CLOSED TRUST.
(2) The received benefit is at the plaintiffs expense:
pg.21

In case it is not obvious, the Plaintiff suffered $400,000 in
monetary losses to improve the value of the property that was
then depressed by the existence of a foreclosure action; and
when the foreclosure was gone, the pop in value and equity in
the property returned, the Defendant then sold it to a third
party, taking all the equity from Linda Ames. What’s worse, is
that the Defendant / Appellee double recovered by reason of the
class action, and did not disclose that information to the court;
to Ames; or anyone. They kept the money from the settlement
and all the equity in the Plaintiffs property as well as doubling
their recovery on the mortgage.
(3) The circumstances make it unjust for the defendant to
retain the benefit without payment.
There was no auction. The court found that Plaintiff
waived her right to recovery because she did not stop the sale.
However, that ignores the simple fact that there was no sale to
stop, as the Plaintiff was told it was cancelled. What is even
more disturbing, is that the Defendant set an eviction
proceeding at the same time as the auction, forcing the Plaintiff
to decide whether to appear at the auction or at the eviction
proceeding where the Defendant attempted to remove her from
her home unlawfully. After being told the auction was
cancelled, she raced to the eviction proceeding, which was also
inexplicably and mysteriously cancelled by the Appellee. There
was no open bidding process and no fair market offers obtained.
All the equity was stolen by the Defendant in a back door
transfer.
IT IS UNJUST TO RETAIN THE BENEFITS AS THE
MORTGAGE WAS VOID.
The Trust was closed on April 28, 2006 and the
assignment of mortgage was December 6th, 2011 pursuant to
the recorded assignment, Document 4813726, recorded in the
official records of Clark County, Washington, Exhibit 3
attached to the complaint. The Trust which purportedly held
the securitized (and therefore voided) mortgage was closed at
the time of the acquisition and the Defendant was entitled to
nothing, and took everything. It is a violation of New York Law
to acquire an asset into a closed trust, and in so doing, the
pg.22

transfer is void. That as a part of that transaction, the
assignment is of a securitized instrument and as a result of it
being securitized into a closed trust, the instrument was
actually void and makes the mortgage which is the subject of
this action void, See Glaski v. Bank of America, 218 Cal. App.
4th 1079 - Cal- Court of Appeal, 5th Appellate Dist. 2013^
“Under New York Trust Law, every sale, conveyance or other
act of the trustee in contravention of the trust is void. EPTL §
7-2.4. Therefore, the acceptance of the note and mortgage by
the trustee after the date the trust closed, would be void."
(Wells Fargo Bank, N.A. v. Erobobo (N.Y.Sup.Ct. 2013) 39
Misc.3d 1220(A) [2013 WL 1831799, p. *8]; see Levitin &
Twomey, Mortgage Servicing, 28 Yale J. on Reg. at p. 14, fn. 35
[under N.Y. law, any transfer to the trust in contravention of
the trust documents is void].) Relying on Erobobo, a bankruptcy
court recently concluded "that under New York law,
assignment of the Saldivars' Note after the start up day is void
ab initio. As such, none of the Saldivars' claims will be
dismissed for lack of standing." (In re Saldivar (Bankr.
S.D.Tex., June 5, 2013, No. 11-10689) 2013 WL 2452699, p. *4.)
The logic is simple. The Trust is closed. It could not acquire the
Plaintiffs mortgage and /or note. There are no SEC filings for
the Trust after 2006. It no longer exists as a legal entity. As
such, the act of claiming Defendant was holding the note and
mortgage is a fraud upon the Court, the Plaintiff and this
tribunal Court. The Appellee literally profited from a crime.
Wells Fargo Bank, N.A., in their SEC filings, notified the
public and the SEC that they were in litigation with their
investors (the Lenders). “Since June 18, 2014, a group of
institutional investors [the Plaintiffs purported lender] have
filed civil complaints in the Supreme Court of the State of NY,
NY County, and later the U.S. Dist. Ct S. Dist. of NY against
Wells Fargo Bank, N.A., in its capacity as trustee for certain
residential mortgage backed securities (“RMBS”) trusts. The
complaints against Wells Fargo Bank alleged that the trustee
caused losses to investors and asserted causes of action based
upon, among other things, the trustee’s alleged failure to- (i)
notify and enforce repurchase obligations of mortgage loan
pg. 23

sellers for purported breaches of representations and
warranties, (ii) notify investors of alleged events of default, and
(iii) abide by appropriate standards of care following alleged
events of default. Relief sought included money damages in an
unspecified amount, reimbursement of expenses, and equitable
relief. Wells Fargo Bank has reached an agreement, in which it
denies any wrongdoing, to resolve these claims on a class wide
basis for the 271 RMBS trusts currently at issue. The
settlement agreement is subject to court approval. Separate
lawsuits against Wells Fargo Bank making similar allegations
filed by certain other institutional investors concerning 57
RMBS trusts in New York federal and state court are not
covered by the agreement.”
Wells admitted as early as 2007 it was already violating
its duties. Ibid. Published: 2007-03-30 09:44:45, Submitted:
2007-03-30, Period Ending In: 2006-12-31. This was the last
SEC filing by Defendant.
HSBC knew Wells was failing in their duties when they
acquired the subject void mortgage into the closed trust, and
foreclosed on Ames for the purpose of financial gain. It was
wholly unjust to retain the benefits of the wrongful foreclosure.
POINT FOUR
AMES DID NOT WAIVE HER QUIET TITLE, WRONGFUL
FORECLOSURE, CONVERSION, AND CIVIL CONSPIRACY
CAUSES OF ACTION WHEN SHE FAILED TO ENJOIN THE
VOID FORECLOSURE SALE BECAUSE THERE WAS NO
SALE TO ENJOIN. SHE WAS TOLD IT WAS CANCELLED
AND THE APPOINTMENT OF THE TRUSTEE WAS VOID.
The court said Ames waived her right to recover because she
did not take action to stop the sale. However, FIRST, SHE
WAS TOLD THE SALE WAS CANCELLED. There was
nothing to stop. Second, the Lender was paid in full through
the class action. Third, the Lender profited even more by
stealing all her equity through a private transfer then
subsequent sale for full fair market value.

pg. 24

In addition to the above arguments, the sale and thus the
California Transfer, was void because the substitution of the
trustee was void. If a substitution of trustee is fraudulent, then
a nonjudicial foreclosure sale based on that substitution is void.
See Pro Value Props., Inc. v. Quality Loan Serv. Corp., 170 Cal.
App. 4th 579, 583 (2009) (failure to comply with CAL. CIV.
CODE § 2934a(a)(l) renders subsequent nonjudicial
foreclosure sale void); Miller v. Wells Fargo Bank, No. C*122282 EMC, 2012 WL 1945498, at *2, 4 (N.D. Cal. May 30, 2012)
(Chen, J.) (granting preliminary injunction preventing
foreclosure sale because the plaintiff was likely to prevail on
claim that foreclosure was improper due to fraudulent
substitution of trustee); Glaski v. Bank ofAm., Nat'l Ass'n, 218
Cal. App. 4th 1079, 1100 (2013) (foreclosure sale is void if the
foreclosing entity lacked the authority to foreclose on the
property).
Defendants' lacked the authority to foreclose due to a
fraudulent Substitution of Trustee document. See Glaski, 218
Cal. App. 4th at 1100, Lester v. J.P. Morgan Chase Bank, 926
F. Supp. 2d 1081, 1093 (N.D. Cal. 2013) and Engler v.
RECONTRUST COMPANY, Dist. Court, CD California 2013.
It is important to note that the appointment of the trustee is
invalid and the appointment of the trustee is fraudulent as
alleged in the complaint. Plein, 149 Wn.2d at 227.RCW
61.24.127(1). The complaint Paragraphs 10 - 14 that alleges
that the appointment by Wells was void since Wells already
assigned away their interest at the time they appointed the
trustee.
The evidence was supposed to be construed in the light most
favorable to the moving party, not to Linda Ames, the
nonmoving party. Barrie v. Hosts ofAm., Inc., 94 Wn.2d 640,
642, 618 P.2d 96 (1980); Yakima Fruit & Cold Storage Co. v.
Central Heating & Plumbing Co., 81 Wn.2d 528, 530, 503 P.2d
108 (1972); Barber v. Bankers Life & Cas. Co., 81 Wn.2d 140,
142, 500 P.2d 88 (1972); Morris v. McNicol, 83 Wn.2d 491, 49495, 519 P.2d 7 (1974).” Wilson v. Steinbach, 656 P. 2d 1030 Wash: Supreme Court 1982.
pg.25

The court overlooked the facts that the sale was cancelled. That
the Defendant has been absent from the state at all times. That
the Defendant is doing business here unlawfully. That the
Defendant securitized the mortgage into a closed trust, thereby
voiding it. That the note was separated from the mortgage. The
Corporate Assignment of Deed of Trust, Document No.
4813726, says that the Deed of Trust is being assigned, there is
no mention of the note. That deed of trust is voided when it was
securitized. It was also voided when it was separated from the
note by this assignment. That because the assignment only
assigns the Deed of Trust, and not the note, and the note and
mortgage were separated, and as a result the mortgage is VOID
because the mortgage was separated from the note and
pursuant to Carpenter v. Longan, 83 U.S. 271 (1872) and the
long line of cases that followed, the mortgage becomes a nullity.
Because the assignments voided the mortgage, the underlying
foreclosure action was a fraud upon the court and a nullity and
the appointment of the trustee after the assignment made the
appointment void.
POINT FIVE
THE COURT ERRED IN GRANTING THE MOTION FOR
SUMMARY JUDGMENT AS IT WAS PREMATURE AS THE
DEFENDANT / APPELLEE HAS FAILED AND REFUSED
TO RESPOND TO THE DISCOVERY PROPOUNDED FOR
MORE THAN A YEAR.
The Court had already granted a motion to compel, giving the
Defendant until February 28th, 2017 to answer, and Defendant
failed to respond any further. The court erred in not staying
the motion until the discovery orders were complied with by the
Defendant. Demelash v. Ross Stores, Inc., 20 P. 3d 447 - WashCourt of Appeals, 1st Div. 2001, CR 37 and CR 26(g). Civil Rule
(CR) 56(f) allows a trial court to order a continuance when "it
appear [s] from the affidavits of a party opposing [a summary
judgment] motion that he cannot, for reasons stated, present
by affidavit facts essential to justify his opposition." Guile v.
Ballard Cmty. Hosp., 70 Wash.App. 18, 24, 851 P.2d 689 (1993).
Plaintiff sought more time under CR 56(f). Celotex Corp. v.
Pg- 26

Catrett, 477 U.S. 317, 326, 106 S.Ct. 2548, 91 L.Ed.2d 265
(1986))).
POINT SIX
THE APPOINTMENT OF THE TRUSTEE BY WELLS
FARGO WAS VOID BECAUSE WELLS FARGO HAD
ALREADY ASSIGNED ALL THEIR RIGHT TITLE AND
INTEREST IN THE NOTE AND MORTGAGE AT THE TIME
THEY APPOINTED A SUCCESSOR TRUSTEE.
On March 26, 2012, AFTER WELLS FARGO had already
recorded the assignment of Deed of Trust, as set forth above,
they then recorded an appointment of Trustee to Quality Loan
Service Corp. of Washington, Document 48411885 and as a
result of the fact that WELLS FARGO no longer had any right
to do so, the appointment of Trustee was void and unlawful.
RCW 61.24.010. The Successor Trustee could not be appointed
because Wells had ALREADY ASSIGNED their rights away.
The appointment of the successor was therefore VOID. "[Ojnly
the actual holder of the promissory note or other instrument
evidencing the obligation may be a beneficiary with the power
to appoint a trustee to proceed with a nonjudicial foreclosure
on real property." Bain v. Metro. Mortg. Grp, Inc., 175 Wn.2d
83, 89, 285 P.3d 34 (2012). Similarly, a loan "servicer" is not
necessarily the owner, but the servicer must be a holder of the
Note in order to enforce the Note. Brown, 184 Wn.2d at 523.
"Only a lawful beneficiary has the power to appoint a successor
trustee, and only a lawfully appointed successor trustee has the
authority to issue a notice of trustee's sale." Walker v. Quality
Loan Serv. Corp., 176 Wn. App. 294, 306, 308 P.3d 716 (2013)
(footnotes omitted). On December 5th, 2012, after having no
lawful right to do so, QUALITY LOAN SERVICE CORP OF
WASHINGTON recorded a NOTICE OF TRUSTEE SALE,
Document 49594105 said document being a slander on the title
of the Plaintiff, and further constitutes the filing of a false
document in the official records of the County, a felony in this
State.
pg.27

CONCLUSION:
For the foregoing reasons, the Defendant respectfully requests
that this Court remand the matter back to the Lower Court and
order that the foreclosure sale be deemed fraudulent and Ames
be entitled to proceed to prove her damages. Public opinion is
noticeably clear. The ‘banks own the courts’. Please do not let
this ring true. This Court should further make the order
sufficiently strongly worded to prevent the continued
miscarriage of justice by these non-existent trusts filing suit
under a fake name in order to fabricate standing, stealing
borrowers homes and tripling their investment at the expense
of the borrowers.
Respectfully submitted this

day of

, 2020J^

LINDA AMES
11920 NW35TH
AVENUE
VANCOUVER WA
98685
TEL: (360) 931-1797
E-mail:
lindalouames@comcast.
net Appellant Pro Se

pg.28

CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the
foregoing has been furnished by U.S. Mail, dated
. to Justin T. Jastrzebski at
701 rike St
Ste 1560
Seattle WA 98101-3915
Dated: August/^/'. 2020
^

LINDA AMES
APPELLANT
11920 NW 35TH AVENUE
VANCOUVER WA 98685
TEL: (360) 931-1797
E-mail: lindalouames@comcast.net
Appellant Pro Se

pg. 29

